  Office of Inspector General
      Audit Report


 ACCURACY AND RELIABILITY OF DOT’S
IMPROPER PAYMENT REPORTING CAN BE
            IMPROVED

        Department of Transportation

         Report Number: FI-2014-037
         Date Issued: April 15, 2014
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Accuracy and Reliability of DOT’s                                   Date:    April 15, 2014
           Improper Payment Reporting Can Be Improved
           Department of Transportation
           Report Number FI-2014-037

  From:    Louis C. King                                                            Reply to
                                                                                    Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           In recent years, the Federal Government has intensified efforts to eliminate
           incorrect payments made from Federal program funds, including wrong amounts,
           duplicate payments, or payments with insufficient documentation. In July 2010,
           President Obama signed the Improper Payments Elimination and Recovery Act
           (IPERA), 1 which amended the Improper Payments Information Act of 2002, 2 to
           encourage the elimination of payment error, waste, fraud, and abuse in Federal
           programs. IPERA requires Federal agencies to have improper payments of less
           than 10 percent within their programs. It also requires agencies to test annually for
           improper payments in their programs and to publish the results in their Annual
           Financial Reports (AFR). The act calls for inspectors general to review their
           agencies’ compliance with IPERA and to submit reports to the heads of their
           agencies. 3

           To meet IPERA’s requirements, we reviewed the Department of Transportation’s
           (DOT) improper payment testing results in the fiscal year 2013 AFR to determine
           whether (1) DOT complied with IPERA’s reporting requirements as implemented
           by the Office of Management and Budget (OMB), (2) the improper payment
           information in the AFR was accurate, and (3) the tested programs met IPERA’s


           1
             Public Law 111-204 (2010).
           2
             Public Law 107-300 (2002).
           3
             Inspectors general also submit their reports to the Senate Committee on Homeland Security and Governmental
           Affairs, the House of Representatives Committee on Oversight and Governmental Reform, the Comptroller General,
           and the Controller of the Office of Management and Budget.
                                                                                  2


10-percent or less rate for improper payments as well as their own improper
payment reduction targets for 2013.

DOT hired a consulting firm (the Contractor) to assist in its implementation of
IPERA’s annual requirements. To conduct our work, we reviewed the
methodology that the Contractor used to select the sample of 606 payments tested
to determine if they were improper. We retested a statistical sample of 50 of the
583 payments that the Contractor or DOT’s employees had tested and found to be
not improper. We conducted this audit in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
DOT’s AFR included all of OMB’s required reporting elements. Specifically,
DOT reported on its assessments of programs’ risk for significant improper
payments; improper payment estimates; corrective action plans for the Federal
Aviation Administration (FAA), Federal Highway Administration (FHWA), and
Federal Transit Administration (FTA) to reduce future improper payments; and
annual improper payment reduction targets for the five tested programs. DOT also
included a description and evaluation of its recapture audit programs and
identified amounts for recapture, amounts recaptured, and those outstanding and
uncollectable.

Although DOT reported improvements in its improper payments program (e.g.,
FHWA’s Federal-Aid Highway program’s improper payment estimate dropped
below IPERA’s threshold for “significant risk”), its 2013 AFR contained some
inaccurate information on improper payments. Five of the 50 transactions we
retested did not meet IPERA’s definition of a payment but were reported as
payments by both the Contractor and DOT. DOT and the Contractor should have
substituted these transactions with actual payments and used the substitutes to
complete their testing. By not doing so, DOT increases the risk that its IPERA test
results may not be accurate. DOT also inaccurately listed its 2012 improper
payment estimates for two grant programs—which are included to note progress
or lack thereof in improper payment reductions. It also incorrectly reported that it
paid $0 in fees for its recapture audit when it actually paid $40,000 in fees.
Furthermore, FTA reported recovering a $24,357 duplicate payment but could not
provide evidence in the accounting system that it actually recovered it. DOT
officials acknowledged that its AFR includes these inaccuracies and attributed
them to poor screening of data files and administrative oversight errors.

According to DOT, its programs met IPERA’s requirement that less than
10 percent of total payments be improper. While DOT reported its programs met
the requirement, one of FTA’s tested programs—the Formula Grant Program—did
                                                                                                          3


not achieve its own target to reduce improper payments to 0.25 percent or less for
fiscal year 2013 as set by OMB guidelines. Unmet target reduction rates create a
risk that DOT’s operating administrations will not progress in reducing their
improper payments. However, as DOT reported in the AFR, FTA did develop a
corrective action plan to address its improper payments.

We made three recommendations to improve the accuracy and reliability of
DOT’s improper payment reporting.

BACKGROUND
IPERA defines a payment 4 as any transfer or commitment for future transfer of
Federal funds, including cash, securities, loans, loan guarantees, and insurance
subsidies, to any non-Federal person or entity, that is made by a Federal agency,
Federal contractor, Federal grantee, or a governmental or other organization
administering a Federal program or activity.

In April 2011, OMB revised its Circular A-123, Appendix C 5 (Circular) to
enhance IPERA implementation. The Circular defines improper payments as the
following:

• Payments to ineligible recipients,
• Duplicate payments,
• Payments in incorrect amounts,
• Payments for ineligible services and services not received, and
• Payments with insufficient documentation.

OMB Circular A-136 6 requires agencies’ reports on annual improper payment
testing to include program risk assessments, estimates of improper payment dollar
amounts made during both the current year and the prior year, corrective action
plans, and annual improper payment reduction targets. OMB Circular A-136 also
requires agencies’ reports to include (1) descriptions and evaluations of payment
recapture audit programs, which review and analyze programs’ accounting records
and supporting documentation to identify and recover overpayments; (2) amounts
identified for recapture; (3) descriptions of and justifications for the classes of
payments excluded from payment recapture audits; and (4) amounts recaptured



4
  Public Law 111-204 (2010).
5
  OMB M-11-16, Requirements for Implementing IPERA: Issuance of Revised Parts I and II to Appendix C of OMB
Circular A-123, April 14, 2011.
6
  OMB Circular A-136, Financial Reporting Requirements (2013) establishes reporting requirements for payment
recapture audits.
                                                                              4


and those outstanding and uncollectable. Annually, DOT tests five grant programs
for improper payments:

• FHWA’s Federal-Aid Highway Program
• FTA’s Formula Grants Program
• FTA’s Capital Investment Grants Program
• FAA’s Airport Improvement Program
• the Federal Railroad Administration’s (FRA) High-Speed Intercity Passenger
  Rail Program

DOT and its Contractor developed the sampling plans for the testing for improper
payments, tested selected 7 invoice payments to determine if they were improper,
and projected improper payment estimates for these major grant programs. It is
important to note that improper payments and estimates of improper payments are
not intended to indicate fraud in Federal agencies’ programs and activities.

DOT’S AFR INCLUDED THE OMB’S REQUIRED ELEMENTS
The Department met OMB requirements by including the following in its AFR:
assessments of programs’ risk of significant improper payments; improper
payment estimates; corrective action plans for FAA, FHWA, and FTA to reduce
future improper payments; and annual improper payment reduction targets for the
five tested programs. DOT also included a description and evaluation of its
recapture audit programs and identified amounts for recapture, amounts
recaptured, and those outstanding and uncollectable.

DOT REPORTED IMPROVEMENTS WITH IMPROPER PAYMENTS
BUT ALSO INCLUDED SOME INACCURATE INFORMATION IN
ITS AFR
DOT reported improvements in it improper payments program. For example, DOT
reported that FHWA’s Federal-Aid Highway program’s estimate of improper
payments was $91.4 million—less than IPERA’s $100 million threshold for
“significant risk.” However, its 2013 AFR did include some inaccurate
information on the number of payments tested, improper payment estimates for
2012, and costs of the payment recapture audit. Specifically:

• DOT incorrectly reported the number of payments that the Contractor tested.
  Five of 50 sample item payment transactions we retested did not meet IPERA’s

7
    FHWA tested its own payments.
                                                                                  5


   definition of a payment. Consequently, the Contractor should have excluded
   them from the sample and substituted other payments for testing. Instead, it
   incorrectly included the transactions in its calculation of the FTA, FRA, and
   FAA programs’ improper payment estimates. By not testing substitutes, DOT
   increased the risk that its IPERA test results may not be accurate.

• DOT inaccurately reported 2012 improper payment estimates for FHWA’s
  Federal-Aid Program and FTA’s Formula Grant Program. These prior year
  estimates are included in annual reporting to make year-to-year comparisons of
  agencies’ progress or lack thereof in reducing improper payments. Because it
  reported lower estimates than the programs actually achieved, DOT slightly
  understated the programs’ progress.

• DOT incorrectly reported the costs of its payment recapture program. The
  Department reported $0 in fees but actually paid $40,000 to the contractor that
  conducted its recapture audit.

DOT officials acknowledged that they did not detect these inaccuracies in the AFR
and stated that the inaccuracies occurred because of screening and administrative
oversight errors by both DOT and the Contractor. Insufficient testing and
undetected reporting errors diminish the accuracy and reliability of DOT’s
reporting on improper payments.

While FTA reported to DOT that it recovered a total of $521,062 in duplicate
payments, we found that one of these payments had not been recovered. FTA
reported recovering $24,357 for a duplicate payment but could not provide
evidence from the accounting system or on any invoices that it actually recovered
this amount from the vendor or offset the amount on a subsequent invoice. Federal
internal control standards require supporting documentation and audit trails for all
transactions. In addition, DOT requires Operating Administrations to record all
recovered payments in the Department’s accounting system to ensure accuracy in
improper payment reporting. Without use of the proper accounting system and an
audit trail, there is greater risk that recorded transactions are not accurate or
approved.

ONE OF FTA’S TESTED PROGRAMS DID NOT MEET ITS 2013
IMPROPER PAYMENT REDUCTION TARGET
According to DOT, its programs met IPERA’s requirement that less than
10 percent of total payments be improper. However, one of FTA’s tested
programs—the Formula Grant Program—did not achieve its own target to reduce
improper payments to 0.25 percent or less for fiscal year 2013 as set by OMB
guidelines. DOT officials estimated the Formula Grant Program’s 2013 improper
                                                                                  6


payments were $62.6 million, or 0.73 percent of total Program payments.
Therefore, the amount of improper payments exceeded FTA’s target amount
($23.1 million) by $39.5 million and the target reduction rate (0.25 percent) by
0.48 percent.

The Contractor reported to DOT that 4 of the 30 FTA Formula Grant Program
grantees that it tested made at least 1 of the following types of improper payments:

• Payment for ineligible goods and services,

• Payment of an incorrectly calculated Federal share,

• Payment of an incorrect amount, or

• Payment made with insufficient supporting documentation.

However, as DOT reported in the AFR, FTA did develop a corrective action plan
to address these types of improper payments. DOT acknowledged that unmet
target reduction rates create a risk that DOT’s operating administrations will not
progress in reducing their improper payments.

CONCLUSION
OMB has designated the reduction of improper payments as a top priority for all
Federal agencies. DOT made over $60 billion in payments to grantees during the
reporting period, and reduction of improper payments has been a significant
challenge. While DOT is making important efforts to reduce improper payments—
such as reducing a program’s improper payments below the “significant risk”
threshold—increasing the level of accountability and oversight from both
contractors and program officials will help to ensure that its testing and reporting
procedures are reliable and fully meet IPERA and OMB standards.

RECOMMENDATIONS
We recommend that DOT’s Assistant Secretary for Budget and Programs/
Chief Financial Officer:

1. Provide specific documentation requirements and greater oversight of
   contractors who perform improper payment testing to ensure that the work
   performed tests actual payments and verifies that each transaction has an audit
   trail and proper support.

2. Implement procedures that ensure that all the elements required for IPERA
   reporting are accurate and supported by documentation.
                                                                                  7


3. Reinforce DOT policy that the recovery of duplicate payments must be
   recorded in DOT’s accounting system.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a discussion draft report to DOT officials and discussed our results
on April 10, 2014. DOT officials concurred with our findings and
recommendations.

ACTIONS REQUIRED
In accordance with DOT Order 8000.1C we request that DOT provide our office,
within 30 days of this report, with target action dates for the recommendations
included in this report.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407, or George Banks, Program Director, at
(410) 962-1729.

                                         #
cc:   DOT Audit Liaison, M-1
                                                                                   8




EXHIBIT A. SCOPE AND METHODOLOGY

We conducted this audit from December 2013 through April 2014 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To address our audit objectives, we reviewed applicable laws and regulations. We
interviewed DOT personnel and contractors responsible for IPERA’s
implementation. To assess the Department’s compliance with IPERA
requirements we (1) reviewed statistical sampling plans and improper payment
projections and amounts to verify all programs susceptible to significant improper
payments were tested and accurately reported and (2) obtained supporting
documents on the actions taken and reported in the AFR.

OIG’s Senior Statistician selected a statistical sample of 50 out of 583 transactions
with an amount of $121.4 million out of $511.7 million that the Department and
its Contractor had tested and found not to be improper. We retested the propriety
of those conclusions in FHWA’s Federal-Aid Highway Program, FTA’s Formula
Grant and Capital Investment Grant Programs, FRA’s High-Speed Intercity
Passenger Rail Program, and FAA’s Airport Improvement Program. The
supporting documentation included, among other documents, summary schedules,
grant agreements, invoices, checks, and payment vouchers.

We obtained supporting schedules used to summarize the $1,199,046 of duplicate
payments DOT reported it recovered during the reporting period and identified
14 transactions, valued at $228,494.45 that included notes indicating the amounts
may not have been recovered. We selected all 14 of these transactions and
compared the reported recovery amounts to invoices and collections in DOT’s
accounting system to determine if these amounts were recovered.




Exhibit A. Scope and Methodology
                                                             9




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title
George Banks                           Program Director

Mark Rielly                            Project Manager

Christina Lopez                        Analyst

Scott Williams                         Analyst

Petra Swartzlander                     Senior Statistician

Susan Neill                            Writer-Editor




Exhibit B. Major Contributors to This Report
